HHS/OIG, Audit -"Palmetto Government Benefit Administrator's President's Council on Integrity and Efficiency Debt Collection,"(A-04-01-03003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Palmetto Government Benefit Administrator's President's Council on Integrity and Efficiency Debt Collection," (A-04-01-03003)
November 5, 2001
Complete
Text of Report is available in PDF format (507 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to:  (1) determine the amount of non-tax delinquent debt owed to Medicare that
existed at September 30, 2000; and (2) assess the collectibility of the delinquent debt at the contractor level for the
same period.  The accounts receivable balances Palmetto Government Benefit Administrators (PGBA) reported to the Centers
for Medicare & Medicaid Services for financial statement purposes for the period ending September 30, 2000 for Part
A (non-Medicare Secondary Payor (MSP) and MSP) accounts receivable was $1,280,443,717.  We reconciled the subsidiary
accounts for Part A to the general account.  Other audit tests we performed on statistical samples of Part A non-MSP
balances showed the vast majority of receivables were recorded, supported, complete, properly valued and existed at September
30, 2000.  However, we did recommend that the contractor reduce five Part A balances totaling over $10 thousand that
were either not adequately supported or had improperly applied payments.  PGBA officials concurred with th e recommendations
and agreed to take corrective action to reduce the accounts receivable balance we identified in the report.